<html>
<title> - REGIONAL OVERVIEW OF EAST ASIA AND THE PACIFIC</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   REGIONAL OVERVIEW OF EAST ASIA AND
                              THE PACIFIC

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2010

                               __________

                           Serial No. 111-115

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
55-272                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b1c0b143b180e080f131e170b5518141655">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Kurt M. Campbell, Assistant Secretary, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State.......     7

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     4
The Honorable Kurt M. Campbell: Prepared statement...............    10
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois: Prepared statement.................    27

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49


             REGIONAL OVERVIEW OF EAST ASIA AND THE PACIFIC

                              ----------                              


                        WEDNESDAY, MARCH 3, 2010

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. Subcommittee will come to order. This is 
a hearing of the Foreign Affairs Committee's Subcommittee on 
Asia, the Pacific and the Global Environment, and today we have 
as our special guest the assistant secretary for East Asian and 
Pacific affairs, the Honorable Kurt Campbell. As is the 
practice, the chairman and the ranking member usually give 
opening statements, and in the process, we should be getting 
more members coming in from their respective offices. The 
ranking member, my good friend, Congressman Manzullo, is tied 
up in a markup at the Financial Services Committee, but I am 
sure that he will be here shortly.
    Mr. Secretary, thank you for joining us today. I appreciate 
your efforts and those of Secretary Clinton and President Obama 
in upgrading our relations with the Asia Pacific region. Your 
collective efforts have delivered demonstrable positive 
results. Indeed, with few exceptions I believe this 
administration has done an excellent job in its first year 
managing relations with this most dynamic and important region. 
For example, despite the challenges posed by China, this 
administration has defied the practice of many of its 
predecessors by getting off to a positive start with Beijing.
    Beijing's relatively mild response to weapons sales to 
Taiwan and the visit by the Dalai Lama, I believe, reflect a 
maturation of our ties, particularly as a result of the 
Strategic and Economic Dialogue and other high-level 
interactions, as well as relative calm in the Taiwan straights 
with President Ma's election. However, there is also cause for 
concern regarding issues ranging from Copenhagen to Google. Yet 
I believe the maturation of the United States-China 
relationship also suggests China's own interest in peace and 
security as the country attempts to maintain internal social 
stability by meeting the economic, and increasingly, the social 
and political demands of its 1.3 billion citizens.
    There is no doubt that China's artificially weak currency 
and the country's position on Iran will pose difficult problems 
this year. Yet, if both sides hew to the positive, cooperative 
and comprehensive United States-China relationship as agreed 
last year, I believe we should be able to work things out.
    Meanwhile, as the Congressional Research Service has noted, 
``Relations between the United States and South Korea arguably 
have been at their best state in nearly a decade.'' Last year's 
joint vision statement provided an important marker in the 
evolution of the bilateral relationship toward a truly global 
orientation.
    On North Korea, our two countries are working as closely as 
ever, which is critically important in transferring any wartime 
operational control from the United States to Korea in the near 
future. With Seoul chairing the G-20 this year, the Republic of 
Korea has a vital role to play in supporting international 
growth and development. That said, I am concerned that if the 
Korea-U.S. Free Trade Agreement remains in limbo, the effect 
could become increasingly corrosive. That is why I fully 
support the timely passage of the Korea-U.S. Free Trade 
Agreement. United States-Japan ties, a subject this 
subcommittee will address specifically in a hearing in 2 weeks, 
remain on a solid footing despite a degree of media 
hyperventilation over basing issues, host nation support and 
potential changes in Japan's foreign policy.
    With the Democratic Party of Japan in power for the first 
time in 50 years, we need to demonstrate patience, a word you 
have wisely reiterated in recent weeks. So long as we are 
guided by our shared interests and our broad, deep and enduring 
ties, I believe we will find mutually satisfactory answers to 
basing and other issues, especially the problem with Okinawa. 
In Southeast Asia, your team has made important strides in 
reversing the previous administration's neglect of the region. 
Last year's initiation of a long-needed policy change 
permitting United States engagement with Myanmar, which you 
personally led, and Secretary Clinton's signing of the ASEAN 
Treaty of Amity and Cooperation set the stage for enhanced 
relations with the region.
    President Obama's participation in a first-ever U.S.-ASEAN 
Summit and his personal links to Indonesia, including his trip 
there to launch the U.S.-Indonesia Comprehensive Partnership 
later this month, will further bolster our ties. However, I 
urge you, Mr. Secretary, to make continuing human rights abuses 
in West Papua a priority as we develop the partnership. 
Meanwhile, our alliances in Thailand and the Philippines remain 
robust, as do our diplomatic, economic and security relations 
with Singapore and Malaysia. United States interactions with 
Vietnam, Laos and Cambodia have become increasingly 
cooperative, and the fact that Vietnam is chairing ASEAN this 
year offers an effective means of strengthening ties.
    Our relations with Cambodia have deepened, particularly 
after last year's lifting of the ban on direct assistance to 
the Cambodian Government and on Export-Import Bank financing 
for United States companies seeking to do business in Phnom 
Penh as well as in Laos. As we discussed last week, I strongly 
advocate forgiving Cambodia's debt in order to improve that 
country's economy and to address the legacy of war. Toward that 
end, I also believe we should take a more proactive stance in 
funding demining operations in Laos and in addressing the 
tragic effects of Agent Orange in Vietnam. In addition, I hope 
we can compliment our diplomatic, political and strategic 
overtures in Southeast Asia with real progress on trade, 
including on the Trans-Pacific Partnership, on other 
initiatives with individual Southeast Asian countries and ASEAN 
as a whole, and ultimately a free trade area for this region.
    In the Pacific, the administration has been on the right 
track with Secretary Clinton's meeting with Pacific Island 
leaders during the U.N. General Assembly. As you noted, Mr. 
Secretary, her commitment to holding such meetings annually is 
a great improvement. Your having moved forward on returning 
USAID to the Pacific Islands through the $13 million requested 
for Fiscal Year 2011, an initiative I have pursued for more 
than a decade, I believe, will have an important, positive 
effect. As you know, Mr. Secretary, I have been screaming for 
the last 20 years about the fact that we have not had a USAID 
presence in the Pacific.
    I look forward to Secretary Clinton's rescheduled trip to 
Australia, New Zealand and Papua New Guinea, and, as you 
mentioned in our discussion, her plans to stop in American 
Samoa as part of the trip, which, as you indicated, she was 
slated to do originally. Following up on our discussions, I 
have also invited her to stop over as I believe such a visit 
would support your efforts to strengthen United States-Pacific 
Island relations and American Samoa's position as a regional 
leader. It would also give her the chance to thank the 
thousands of Samoan men and women serving in the Armed Forces 
during a year that will be marked both by rebuilding efforts in 
the aftermath of the devastating earthquake and tsunami, and by 
the 110th anniversary of the United States flag being raised in 
American Samoa. Our people in the military services put their 
lives on the line every day in the most dangerous parts of the 
world. In fact, in Iraq we have a higher per capita combat 
mortality rate than any other U.S. State or territory.
    I applaud Secretary Clinton in meeting her objectives to 
deepen our historical ties, build new partnerships and work 
with existing multilateral organizations. As she has aptly 
stated, ``America's future is linked to the future of the Asia 
Pacific region, and the future of this region depends on 
America.'' I am very, very happy that we are joined this 
afternoon by one of our distinguished colleagues and senior 
members of the Foreign Affairs Committee, and our former 
ambassador to the FSM, my dear friend, Congresswoman Watson 
from California, for her opening statement.
    [The prepared statement of Mr. Faleomavaega 
follows:]<greek-l>Faleomavaega statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Watson. Thank you so much, Mr. Chairman. I feel this is 
a very timely hearing so we can look to the state of affairs in 
East Asia and the Pacific. Samoa is such an important part of 
that region, and I look forward to returning again. In these 
last few months we have seen a considerable change in the 
region. Japan saw a shift in leadership for the first time in 
50 years from the liberal Democratic Party to the Democratic 
Party of Japan. North Korea left negotiations and carried out a 
nuclear test. Though the administration has made some strides 
with respect to building a more positive relationship with 
China, there is a long way to go, increasingly complicated by 
the friction of the Sino-United States economic relations.
    With this changing environment in the region it is 
important to reevaluate our strategy in order to maintain some 
stability. Therefore, I thank you, Secretary Campbell, for 
coming to answer our questions and to address some of these 
changing issues. I also, again, thank the chairman, and I yield 
back the remainder of my time.
    Mr. Faleomavaega. Thank you, Congresswoman. I appreciate 
your testimony. Again, our subcommittee is very honored to have 
with us assistant secretary for East Asian and Pacific affairs, 
Secretary Campbell. Secretary Campbell was appointed and 
nominated by President Obama and he became assistant secretary 
in June of last year. A very, very distinguished record. A 
history in the Asia Pacific region, a former associate 
professor of public policy and international relations at the 
John F. Kennedy School of Government at Harvard University. Dr. 
Campbell served in several capacities, also as deputy assistant 
secretary of defense for the Asia Pacific. Also was a director 
on the National Security Council staff as a White House fellow, 
an officer in the Navy. What hasn't he done?
    Received his bachelor's degree from the University of 
California in San Diego and his doctorate in international 
relations from Oxford University's Brasenose College, and was a 
distinguished Marshall Scholar. Mr. Secretary, I again thank 
you for coming, and I am going to give you the floor. Please 
share with us your wisdom. I am sure that my colleagues and I 
will have some questions and comments on the state of affairs 
in this important region of the world, the Asia Pacific. Mr. 
Secretary?

    STATEMENT OF THE HONORABLE KURT M. CAMPBELL, ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Campbell. Thank you very much, Mr. Chairman and Ms. 
Watson. Thank you both for your leadership on these issues and 
your commitment. I cannot imagine a more timely hearing than to 
discuss American strategy and our commitments in the Asian 
Pacific region. Before I get started, I would like to ask that 
my full testimony be submitted for the record. It is rather 
lengthy and detailed and I don't want to read it. I would 
rather us have a conversation.
    Mr. Faleomavaega. Without objection. Any other ancillary 
materials you would like to submit for the record, Mr. 
Secretary, you are more than welcome.
    Mr. Campbell. Thank you. I will do so. Mr. Chairman, I 
think the truth of the matter is the United States faces both 
challenges, real challenges, but also opportunities in the 
Asian Pacific region, and now we have the opportunity to look 
back over the last year to what we have accomplished and some 
of the things that we would like to work on in the time ahead. 
First of all, let me say that one of the most significant 
issues that we deal with is that when we look back on this 
period in 20 or 30 years, I think there will be no doubt that 
although we are importantly engaged in Iraq and Afghanistan and 
in issues in South Asia, the truth is, I think, really the 
fulcrum of history, the most dynamic region of the world, the 
most important issues for our prosperity and our role in global 
politics, those issues are playing out in the Asian Pacific 
region.
    It is absolutely essential that the United States convey to 
the key players in the Asian Pacific region that we are here to 
stay and that we are going to play a dynamic and continuing 
role in all aspects of foreign policy, national security, the 
promotion of human rights and our values, trade, economics in 
the region going forward. It is absolutely essential. I have to 
say, Mr. Chairman, there really wasn't a word in your 
statement, or yours, Ms. Watson, that I would disagree with. I 
think I would associate myself very strongly with everything 
that you have said. You will have noted that from the outset of 
the administration our senior team, the President, the 
Secretary and other senior officials, Secretary Gates and 
others, have tried to make clear not only with their words, but 
their actions, about their strong commitment to the region.
    Secretary Clinton's first visit as Secretary of State was 
to the Asian Pacific region. During the first year in her 
capacity as Secretary of State she visited the region four 
times and she will have a similar record in the period ahead. 
She has taken enormous steps not just in Northeast Asia, but 
also in Southeast Asia as well. I must also say that she has a 
vision of drawing India, a critical country for the United 
States, one of the arriving nations in global politics, to 
bring India more closely into our discussions and our dialogue 
associated with critical issues in the Asian Pacific region. 
President Obama visited, important visit to Southeast Asia for 
APEC.
    Also the first ever, as the chairman indicated, U.S.-ASEAN 
Summit in Singapore, and also important discussions with our 
friends in Japan and South Korea, and I think an important 
visit to China as well. In the coming weeks he will be making 
another visit to Asia where he will stop in Guam, an American 
protectorate. The chairman has given us excellent advice about 
how to think about that trip. Also, stops in Indonesia where he 
spent time as a young person, and Australia as well. We are 
looking forward to that, and I think it is another opportunity 
to reaffirm our strong commitment to the region as a whole. We 
face not only traditional challenges of the kind that we faced 
for decades, questions about an uncertain set of circumstances 
on the Korean peninsula, we still face challenges there, we 
have the responsibility of the maintenance of peace and 
stability across the Taiwan Straight, and we also face the 
challenge of terrorism in Southeast Asia in various forms.
    In addition, we face new challenges, such as the challenge 
of climate change. Some of our partners and friends in the 
region believe that this is one of the greatest challenges of 
the 21st Century. I would concur with that assessment, and I 
know that will be one of the issues that the President and the 
Prime Minister in Australia will be discussing in a couple of 
weeks' time. In some specifics, Mr. Chairman, I would say that, 
as you indicate, we have a new government in Japan, really the 
first fundamental transition in government power in Japan, in 
over half a century. We are working very closely with our 
partners in the new government. I must underscore that they 
have taken several steps that the United States deeply 
appreciates.
    Today, they are the largest supporter of assistance to 
Afghanistan. They have stepped up in a big way. In many 
respects, more significant and substantial investments than 
some of our traditional partners in Afghanistan. They have been 
very supportive in the wake of the Copenhagen meetings in terms 
of following through with critical, credible steps in terms of 
trying to deal with the potential consequences of climate 
change. We are also working closely on issues associated with 
our security relationship. I must tell you, Mr. Chairman, like 
you, I am confident that we will find a way forward to work 
through our issues on Okinawa. We share many of the same goals. 
We want to reduce the burden on the people of Okinawa, but at 
the same time, we believe the maintenance of American forces in 
Japan is a cornerstone of our commitment to the Asian Pacific 
region.
    The only thing I would disagree with, you said our 
relations with Korea are the best they have been in 10 years. I 
would say how about ever. This is the best I have ever seen 
relations between Washington and Seoul. The summit that I 
witnessed between our two leaders was the best I have ever 
experienced. I must say we are deeply grateful for the very 
substantial commitment that we get on a range of issues from 
our South Korean friends. Their recent commitment to 
Afghanistan, their increase in support for a variety of 
investment and humanitarian assistance in the Asian Pacific 
region and elsewhere is much appreciated.
    I think you and others have rightly underscored the 
challenge of the relationship with China. We will have much 
more to discuss about that in the question and answer. I would 
just simply say that we recognize that this is probably the 
most complicated and complex relationship that the United 
States deals with on a daily basis. There are going to be 
issues that we work closely on, there are going to be issues 
that we need to cooperate, but there are also going to be 
issues on which the United States and China disagree. We are 
working closely with our friends in Beijing on a range of 
issues currently. At the top of the list are critical issues to 
the United States. I would argue, and we would argue, to the 
global community they include Iran, North Korea, climate change 
and also continuing efforts to ensure that we are seeking a 
true recovery economically.
    There are a range of issues that our two sides deal with. 
As you have underscored, Mr. Chairman, we have had a recent 
period of some disagreements, but we are confident that we are 
going to be able to maintain positive momentum going forward. 
There is a substantial ballast in our ship in United States-
China relations and we recognize the importance of this 
relationship. We are also committed to maintaining peace and 
stability across the Taiwan Straight. You will have noted the 
steps that we have taken in this regard in recent weeks, and we 
stand by those. You have also seen a substantial increase in 
our commitments in Southeast Asia. We have a comprehensive 
partnership with Indonesia that the President will launch in a 
few weeks.
    Secretary Clinton underscored her commitment to the region 
through a MeKong Delta initiative. We have signed the Treaty of 
Amity and Cooperation. We are in deep discussion with our 
friends in Southeast Asia about the next steps associated with 
architecture. We talked about that, Mr. Chairman, when I met 
with you last week. Clearly, the United States wants to play a 
role in the multilateral institutional discussions in the 
region, and we will have more to talk about in the near future. 
We are also engaged in a careful dialogue in Burma. We 
recognize the challenges there. We have not lifted our 
sanctions.
    We have very clear guidelines about how we would like to 
proceed, and we call on the government there to continue to 
take steps to hopefully lead to a dialogue inside the country 
and also to release political prisoners and to stop some of the 
violence against indigenous groups, including ethnic 
minorities, and of course the longstanding call on the part of 
the United States to release Aung San Suu Kyi.
    Our relationship with Australia is outstanding, and we have 
taken recent steps to make sure that we are working more 
actively with the new government and new friends in New 
Zealand. Then again, as I underscored at the outset, Asia as a 
region is growing in many respects and India's role in this 
respect is critical. So, in conclusion, Mr. Chairman, I would 
just say we have our work cut out for us and enormous 
challenges. The region still looks to the United States for 
leadership and for commitment, and we will continue to try to 
provide that as we move forward. Thank you for this 
opportunity.
    [The prepared statement of Mr. Campbell 
follows:]<greek-l>Kurt Campbell deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Mr. Secretary. We are joined 
now by the distinguished ranking member of our subcommittee, 
the gentleman from Illinois, Mr. Manzullo. I would like to 
offer him time if he has an opening statement that he wishes to 
share with the committee.
    Mr. Manzullo. Mr. Chairman, thank you for calling this 
important hearing, and welcome, Mr. Secretary, to this hearing 
today. I recall with fondness the special relationship that we 
had with Ambassador Chris Hill, former assistant secretary of 
Asia, when he held the same position. We know that we are going 
to have the same close working relationship with you. In fact, 
in April of this year the ambassador from Thailand is coming to 
my district to talk about Southeast Asia issues, and we are 
very much looking forward to that and sharing his insight with 
the students, and faculty and the community at Rockford 
College. Asia Pacific region is one of the most important areas 
of the world for the United States.
    Maintaining good relations in Asia are important not only 
for geopolitical reasons, but for its vital economic trade and 
jobs-related purposes as well. According to the East West 
Center, Asia accounts for 27 percent of total export related 
jobs in America. Given the fact that America's export sector 
accounts for almost 40 percent of total gross domestic product, 
it is vital that we get our relationship with Asia correct. The 
congressional district I have the honor to represent depends 
heavily on exports and foreign direct investment to maintain 
the jobs that we desperately need. I want to thank the 
administration for doing a good job at managing broader United 
States-Asia relations. The administration's focus on Southeast 
Asia, in particular, is a step in the right direction.
    However, with regard to Burma, China and Japan, the record 
is a little mixed. The administration needs to be tougher on 
Burma and scrap its misplaced efforts to engage the military 
junta. Burma's conviction of Nyi Nyi Aung, an American citizen, 
on trumped up political charges is the largest example for why 
we need to end this pointless engagement exercise. Burma will 
not change regardless of how much we want it to. We have all 
followed the travails of Aung San Suu Kyi and the continuous 
harassment that she has had. I think the administration needs 
to be a lot tougher on Burma. The administration needs to act 
more assertively with Beijing to ensure that America's 
interests are not negatively impacted.
    China continues with this business as usual attitude when 
it comes to important issues, such as currency manipulation, 
intellectual property rights violations and lack of religious 
freedom. Despite the administration's efforts to reset 
relations with China, it is clear the leaders of China care 
more about protecting their country's own interest than to 
forge a new relationship. The cyber attack on Google is the 
perfect example of this relationship imbalance. Though, to be 
sure, we have worked with China and seen just a little bit of 
good light with regard to intellectual property challenges and 
know that they are engaged in that, but we really need more 
help from the U.S. Government to encourage China to continue to 
protect intellectual property rights.
    Concerning Japan, the administration must act quickly to 
correlate and lay out a long-term ramification of protracted 
uncertainty on basing at Okinawa. I strongly encourage the 
administration to make it crystal clear to the Japanese 
Government that Congress expects it to honor the preexisting 
agreement. I would also state that accompanying the ambassador 
from Thailand will be the ambassador from Japan, giving 
tremendous honor to Rockford College, appearing at a joint 
session dealing with economic and economic viability in Asia 
and Southeast Asia, so we are very much interested in the State 
Department working in that area, and, Mr. Secretary, very much 
interested in working with you on an even closer basis. I know 
I can speak for my chairman, but we would love to have coffee 
with you some morning with the members of our subcommittee and 
talk about a variety of issues. Is that correct, Chairman?
    Mr. Faleomavaega. Absolutely.
    Mr. Campbell. I would welcome it. I have had the 
opportunity to do that with the chairman, and any time we are 
available. I do very much appreciate your support for this kind 
of endeavor.
    Mr. Manzullo. Thank you.
    [The prepared statement of Mr. Manzullo 
follows:]<greek-l>Manzullo statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you. I would like to turn the time 
now to our good friend, the gentlelady from California, for her 
questions.
    Ms. Watson. Thank you. In the State of the Union the 
President spoke of strengthening our relationship with Korea. 
In her statement last week, Secretary Clinton also mentioned 
the importance of our Korea relationship. The budget request 
includes an economic support fund with $2.5 million for North 
Korea for democracy promotion and human rights programs. In 
your statement you noted that the administration is committed 
to building a more dynamic relationship with South Korea, and 
our ranking member also did. Can you expand on the plan? How 
will you measure the effectiveness of your strategy? What is 
the administration's posture on China's role in the Korean 
peninsula? Are there plans for the Korean FTA?
    Believe me, in my brief trip last August that was our 
number one topic when we got to South Korea, the FTA. I have 
met with visiting delegations that have come from Korea, and we 
had to go there, we do an exchange, and I told them we probably 
wouldn't be able to take up the FTA last year, but we certainly 
are going, after we get past our other issues that we are 
dealing with now, we will look at an FTA. They are very, very 
interested. So can you just bring us up, these issues?
    Mr. Campbell. Thank you so much. Let me try to talk 
collectively on all the issues that we confront and our 
opportunities on the Korean peninsula. Let me just say that the 
President mentioned the free trade agreement in the State of 
the Union, the Secretary has on several occasions, and when we 
met with President Myung-bak in Seoul in November he made a 
very passionate and very committed plea to the United States to 
take this opportunity to engage with South Korea, and that 
South Korea had enormous opportunities with China and 
elsewhere, but this was really the opportunity for the United 
States to take an important step. I found the argument 
extraordinarily persuasive. I am optimistic, as you indicate, 
that just as the President and the Secretary has said, that we 
will be taking this up in due course.
    Ms. Watson. I have the largest South Korean community in 
the whole United States, about 160,000, and Korea town is right 
where my office is located so I am in dialogue with them all of 
the time. One of their issues was the balance of trade. We have 
to wait on our turn when we deal with these policies as a 
caucus on the floor, but I certainly am going to be doing all I 
can to see that we get to a good discussion and a policy. I 
know that the chair is also very interested, and the ranking 
member, too, so we are going to be doing all that we can.
    Mr. Campbell. Great. I appreciate that very much, 
Congresswoman. I must say, when I met with the chairman and 
other members, they have also made clear why they think this 
agreement would be good for Korea, very good for the United 
States. Clearly, there are probably some issues that have to be 
discussed, but overall I think there is a deep appreciation 
about how important this is to American strategy, to American 
commitment in the region, and we take this very, very 
seriously. I must say, I personally appreciate your commitment 
and support of this overall endeavor. In terms of North Korea, 
obviously we face enormous challenges. We are trying to put 
forward as part of the Six-Party framework an approach that 
makes very clear to North Koreans that they must come back to 
negotiations, they must commit denuclearization and must abide 
by the commitments they have made in the joint statement in 
2005, and that that is the essential next step.
    I think we have been very patient, honestly, and I think 
Secretary Clinton's general concept of strategic patience has 
been applicable here. We are lock step with South Korea, Japan 
and other countries in our strategy and our desire to make sure 
that North Korea takes applicable steps to bring them in line 
with the commitments they have already made in 2005. At the 
same time, we remain very concerned about the human rights and 
the tragic circumstances that North Koreans continue to live 
under brutal circumstances. I have worked closely with your 
members, Senator Brownback and others on the other side of the, 
the other body, on strategies for how the United States can 
support people, refugees and others who have left North Korea.
    We have worked very closely with the South Korean 
Government on efforts at assisting refugees to be resettled 
inside South Korea, and we are also looking at opportunities 
for educational exchange for newly arrived North Koreans who 
make the successful transition to South Korea to have the 
opportunity to come to the United States for purposes of study. 
This is a very real and challenging set of problems and we 
accept them head on. The South Koreans are very generous in 
their support for resettlement, and we think our primary 
commitment in this regard is to support South Korea in this 
overall effort, but we take it seriously. We have had dialogues 
with China about steps that we would like to see them take in 
assisting.
    Many of the people who flee North Korea go through China 
and we think that is absolutely essential. We talk with Chinese 
friends about the Korean peninsula, about North Korea, 
particularly in the venue of the Six-Party framework, and I 
think our general goal, of course, is to bring North Korea back 
in line with its earlier commitments associated with the Six-
Party Talks. Still, lots of work to be done and enormous 
challenges on the peninsula going forward.
    Ms. Watson. Thank you. Mr. Chairman, can I use a few more 
minutes? I had some questions about Japan.
    Mr. Faleomavaega. Sure.
    Ms. Watson. Okay. The change in government from the liberal 
Democratic Party to the Democratic Party Japan has altered the 
United States-Japanese relations in the last year. The planned 
relocation of the U.S. Marines Futenma Air Station to Okinawa 
has stalled. I was on the island of Okinawa many years ago for 
2 years. The reason why there wasn't a real big push to get us 
out of there is because we were about 95 percent of their 
economy. The Okinawans worked in our residence, they worked in 
our PX, they worked in our officers' quarters and so on, so we 
had a pretty good feeling, but now I know things have changed. 
I do read that there are demonstrations from time to time for 
us to leave.
    What is the state of our security relationship with Japan 
in light of its geopolitical vulnerability to North Korea? How 
does the new regime in Japan affect United States-Japan 
relationships with respect to global warming, Six-Party Talks 
and the upcoming Japanese hosted APEC summit?
    Mr. Campbell. Thank you very much, Congresswoman. Again, 
critical questions about Japan. I would say that Japan is an 
essential partner of the United States in the Asian Pacific 
region. We just cannot accomplish nearly what we need to unless 
we have a strong partnership between Washington and Tokyo. We 
have tried to walk a careful path when it comes to Japan and 
our issues associated with Okinawa and other aspects of our 
security relationship. On the one hand, we have tried to be 
very firm and clear about what our expectations are and what we 
believe is essential for the maintenance of our mutual security 
and to best allow for the United States to play its role as the 
guarantor of peace and stability in the region.
    At the same time, we expect a new government, it is natural 
to ask questions, to explore new opportunities and new choices, 
and it is incumbent on us as a partner to work with them 
through that process, not to be dictatorial, but to act as a 
partner, to listen and to consult. That is what we are in the 
process of doing. Okinawa is very difficult politics. We 
appreciate that and we understand it. We have made very clear 
to the central government that we still believe that the 
current plan that was negotiated several years ago is the best 
way forward. At the same time, we remain open to other 
suggestions and ideas. I must say, many of these we have also 
looked at as well. We still think this is the best way forward.
    In addition to these issues, however, Japan is one of our 
closest allies on a range of issues, including steps to prevent 
and deal with global climate change, they are supportive of our 
endeavors in Afghanistan and they are close partners when it 
comes to thinking about how to successfully engage North Korea. 
So I must say that I think some of the rhetoric and discussions 
about United States-Japan relationship is indeed, as the 
chairman said, a little bit overblown. This is one of our 
closest global partners. Frankly, we think that there is just a 
natural chemistry and a natural and strategic rationale for our 
two countries to work very closely together. So we are trying 
to be patient and firm at the same time, and also clear about 
how critical we believe this relationship is as we go forward.
    Mr. Faleomavaega. I thank the gentlelady from California. I 
have about 200 questions I wanted to ask you, Mr. Secretary.
    Mr. Campbell. Well, we better get started quick then.
    Mr. Faleomavaega. Shortened down just to a couple, Mr. 
Secretary. Looking in terms of the numbers, I believe you have 
quite a responsibility with this region in the world. My guess 
tells me that you have responsibility for well over 2.7 billion 
people in terms of geographical responsibility. Am I correct on 
that, Mr. Secretary?
    Mr. Campbell. I am not sure they would all feel that way, 
but, I mean, in terms of the region, the region that I am 
working on does indeed extend from Japan all the way down to 
Australia and New Zealand. It does encompass the largest 
population groups, the most dynamic economies and some of the 
greatest challenges that are confronting global politics today.
    Mr. Faleomavaega. I have a question for you concerning a 
country that is not even on the radar screen in terms of our 
national priorities. I believe that we really dropped the ball 
in not correcting some of the things we have done wrongfully 
against this country. In the first place, this country never 
attacked us and they never declared war against us. We are the 
ones who simply went over there and bombed the heck out of 
them. I am talking about the country of Laos, Mr. Secretary. We 
dropped 270 million bombs on this country, approximately 2 
million tons. About 80 million of the bomblets from the cluster 
bombs failed to detonate. As a result of this bombing we did, 
some 50,000 Laotians died.
    It is my understanding that one of the problems that we 
have had is that when our pilots, whatever their bombing 
missions--whether it be up north, Vietnam, or wherever--had to 
come and just drop them off. And it happens to be that poor 
Laos and Cambodia were caught. My point is that I wanted to 
share with you a very serious concern, Mr. Secretary. Total 
U.S. direct funding to help deal with unexploded ordnance, Mr. 
Secretary--and I am talking about 80 million bombs that failed 
to detonate--has amounted to only $176,000. This is absolutely 
outrageous, and it is not the America that I know.
    Total U.S. donations to the UNDP, supposedly through the 
damage trust fund for some 11-year period, is only $3.1 
million. It would take approximately 100 years to complete 
this. If this is the rate that we are spending on helping the 
Laotian Government correct this, what I consider an injustice, 
really, on our part, and that we never seem to just--they just 
seem to fly away and never seem to bother with it. The fact 
that this country with a small population of only 4 million 
people and we are not giving the proper assistance that these 
people really need. Approximately 300 people, children and 
women especially, die as a result of getting hit with 
unexploded ordnance. I want to ask you, Mr. Secretary, is the 
State Department going to review this dismal record? In my 
opinion, given the bombs that we dropped on this country, 
shouldn't we make a little better donation to help clean up the 
place? Would you care to comment on that?
    Mr. Campbell. I would, Mr. Chairman. I thank you, and I 
thank you for your passion and commitment on this particular 
issue. I must also tell you that in my meetings with Senator 
Webb and others in the other House, they have also raised this 
issue with me. I will be in Laos next week and I expect these 
issues to come up directly. I would like nothing more to be 
able to work with you to assist with my department to try to 
get some more support. I, too, believe that this is not only a 
critical issue strategically, but it is also a critical moral 
issue, and so I think it makes sense. I want to tell a story on 
me that I don't think is particularly favorable, but it will 
give you a sense of some of the challenges that we occasionally 
face at the State Departments.
    One of my first briefings still kind of learning the ropes, 
I had come from the Department of Defense and we have a 
different set of zeros, and so very able, incredibly committed 
staff started briefing me on some foreign assistance efforts. I 
am looking at something and I saw it, I said, well, this looks 
about right. I think, you know, $22 million for this particular 
effort is correct. There was kind of silence. So finally 
someone got up enough courage and said, well, actually, you 
know, Curt, it is $22,000. Right? So we have some very real 
challenges here and lots of competition for scarce resources. I 
must say, given, Mr. Faleomavaega, your commitments, 
Congressman, and Senator Webb's and others, I think there is 
room for a greater dialogue between the executive branch and 
our friends on Capitol Hill on this issue. I must also say I 
think a small amount of money can go a long way here.
    Mr. Faleomavaega. I could not agree with you----
    Mr. Campbell. I think we are actually in violin agreement 
here. I would love to work with you to see what we can do going 
forward. Thank you.
    Mr. Faleomavaega. Please. I think that perhaps we spent 
almost $1 billion in building that embassy that we have in 
Baghdad. Over $900 million in building an embassy there for 15 
million people.
    I note with interest that the President is going to go to 
Indonesia this month. I don't know if you were aware, but there 
was a national blog during the Presidential election that 
claimed I was a special agent for then-Senator Barack Obama. 
And when I visited Indonesia and the school that he attended 
when he was young--which I did visit--my assignment was to make 
sure that there was no record whatsoever indicating that Barack 
Obama was born in Indonesia. Unbelievable. The birthers are 
really at it thinking that this is really God's honest truth.
    Mr. Secretary, there has been one issue that I have been 
following for years, and that is the situation in West Papua. I 
don't want to get into the history of how Jakarta and the 
dictator Suharto just went and took over West Papua by force. 
Then, they got 1,000 West Papuan chiefs to vote 100 percent to 
be with Indonesia, which was an absolute sham. There was no 
question. Even the United Nations observers who went there 
wrote a report saying that this was a sham. Lately, the West 
Papuans have been looking at a document that was supposedly 
meant to help them. It was called a special autonomy law that 
the Indonesian Government passed in 1991 under President 
Megawati.
    To this day, Mr. Secretary, I have no idea if the 
provisions of this special autonomy law for West Papua have 
been implemented. In fact, I have every reason to believe they 
have not done anything to implement the provisions of this 
important law. Then there is also the latest development. I 
think someone in the State Department or the Department of 
Defense fully supports giving military training to Kopassus. 
Now, there has been a lot of harm done in terms of the Kopassus 
presence not only in West Papua, but all over Indonesia. I 
would appreciate if you could follow up on this and see where 
we are with the needs of the people of West Papua.
    Mr. Campbell. Thank you.
    Mr. Faleomavaega. I am going to withhold my question. I 
want to yield to my good friend from California, Mr. Royce, if 
he has an opening statement or questions.
    Mr. Royce. I do. I appreciate that, Mr. Chairman, and I 
will just make a couple of points. Asia right now is half of 
the world's economy and is rather aggressively pursuing 
regional economic integration. The U.S. Chamber of Commerce 
tallies 168 agreements in force in Asia. We are a party to 
merely two of those, Australia and Singapore. So I am glad when 
I hear you say that the President is talking more about the 
importance of trade, but I think we need concrete action. I 
think, for example, the Korean-American Trade Agreement, KORUS, 
that would be one example. The Europeans are stepping in and 
doing that same agreement while we are locked out. That means 
that American workers and American consumers lose in the long 
run if we are not engaging in these trade agreements in Asia.
    I think the second challenge here is to make human rights 
part of the strategic outlook, and that also concerns me 
because whether we are talking about China, or Vietnam, or 
North Korea, or Burma--and I think for a minute just about what 
I have seen in the last few months in Vietnam and the 
crackdowns there and the press reports that come across my 
desk. There are 17 activists that were recently convicted in 1-
day show trials. In North Korea there are some 200,000 
political prisoners who are rotting away in the gulags there. 
We all monitor China's assaults on individual freedom and on 
free speech of their citizens, and what is happening in Burma 
concerns us all. I think that we often get caught up in the 
question of the here and now.
    Will China sign on to Iran's sanctions? What is North 
Korea's latest demand? What we are missing is the big picture. 
We are missing that often these abuses against their own people 
are more indicative of the direction in which these countries 
are headed, and frankly, the need for us to do more to hold 
them to account. That needs to be better ingrained in our 
policy. I will give you an example. As far as putting Vietnam 
back on the list of countries of particular concern, I would 
say at a time when the Commission on International Religious 
Freedom reports about what is happening to the Catholic Church, 
what is happening with detentions, and threats, and harassment 
and violence by what they call contract thugs against religious 
leaders; at a time when police officers beat and shock 
prisoners with electric batons, according to the Human Rights 
Watch; at a time when the Buddhist church is terrorized by 
undercover police and by local communist officials, and it is 
across the board, whether it is Protestant, or Buddhist, or 
Catholic, now is the time, in light of these abuses, to relist 
Vietnam on the CPC list.
    Now, legislation I have authored has gone over to the 
Senate to attempt to affect that. These are steps that you, 
frankly, could take, and should take. I will ask you about 
that. Then, I am also concerned about the Philippines. I am 
concerned about the elections there. I have been engaged in the 
past in these election observer efforts overseas and elections 
in May are approaching there. Past polls have been hampered, of 
course, by accusations of corruption. I have heard from the 
Filipino community in southern California that they are 
concerned about that upcoming election and that it may be 
similarly hampered if there aren't election observers. So I 
would ask you, what is being done to lay the groundwork for 
this election, whether it is observers or other actions, to 
help ensure a fair process? Is NDI, IRI, are these institutions 
going to be there on the ground to help monitor? I would 
appreciate your response.
    Mr. Campbell. Thank you very much, Congressman Royce, and 
thank you for coming today. On the first point let me just say 
that when you travel around Asia and spend time in Asia the 
Asian friends look to us for many things. They are grateful and 
appreciative for our role as the provider of peace and 
stability. Our four deployed forces play a critical role in the 
prosperity that that region has enjoyed for the last two 
generations. They are also supportive of our deep commitments 
to democracy and human rights. I think if you look at one of 
the great achievements of American foreign policy, it is the 
trend of democratization and the greater respect for human 
rights.
    You see that in countries like South Korea, Indonesia and 
other countries in Southeast Asia, so I accept that very 
clearly. It is also the case that Asian trends really look to 
the United States to be a leader on economic issues and on 
trade. That is just undeniable. That is something that in every 
meeting I have with my Asian interlocutors, the issue of what 
the American commitment is in this respect. Now, I think the 
President has tried to say a couple of things, and I think the 
administration is trying to work on others.
    He has in almost all his senior meetings, Congressman, 
tried to underscore that there is going to have to be a 
rebalancing of sorts between Asia and the United States going 
forward, that over time that--first of all, it is not going to 
be possible to return to what we might call the status quo 
antebellum whereby very inexpensive Asian capital comes into 
the United States under good terms and that we buy relatively 
inexpensive Asian products leading to a massive trade 
imbalance--that as we go forward, the United States is going to 
have to save more and Asians are going to have to buy more 
American goods, that is absolutely clear, and that, in 
particular, we have got to see some of the big economies 
stepping up to assist in this respect.
    I think that what we are seeing, both with the free trade 
agreement and the TPV formula are prospects and possibilities 
of substantial improvements in American economic performance in 
the Asian Pacific region, so I am with you. I support that, and 
I think that is the right way forward. I must also say, and I 
think you will appreciate this, in the current environment, I 
mean, the President has made very clear it is hard sometimes to 
defend and explain trade when you are dealing with very 
substantial problems associated with unemployment, but 
nevertheless, I do believe that this is a strong area----
    Mr. Royce. Let me interject there and say that there are 
some estimates that 345,000 jobs could be lost if Europe signs 
this trading agreement with Korea and the United States does 
not. So I understand the rhetorical position that it is hard to 
argue this point, but at the same time, if we are left out of 
trade agreements and Europe fills the breach, that means the 
loss of jobs.
    Mr. Campbell. Congressman, and I will tell you very 
clearly, many of our Asian friends have made the point that 
this is a closing window. They want the United States in the 
game. I must say, the challenge is not just from Europe, it is 
from China, it is from other countries, and it is a very real 
and deep challenge. I think one of the arguments that we have 
got to be clear about is the one issue that I would disagree 
with you on is I think you can't look at this picture in terms 
of Asia in its totality. You have got to break it up. There are 
components of Asia and of our trade agreements that are very 
good for the United States, and there are some areas that are 
much more challenging. Obviously, China is in a very 
challenging position, but Australia, we have a very substantial 
surplus, and many studies of other trade agreements or 
prospective trade agreements suggest that they could be very 
good for the United States.
    Mr. Royce. Let us move on because I wanted to quickly get 
your thoughts on the Philippine election, if we could, on that?
    Mr. Campbell. Thank you. I mean, look, we have some history 
with Philippine elections. They are periods that require 
greater American and international vigilance in advance of 
those elections. We are taking those steps and we are doing a 
variety of things, let me just say. One, we are trying to keep 
our ears open. We hear lots of reports, and we think it is 
important to make sure that we have a good sense of what is 
going on on the ground. We are looking at, you know, the new 
voting machines, all of those things. We have very high-level 
dialogue with our excellent ambassador and others, with the 
Filipino Government<greek-l>s deg., with the appropriate 
authorities about what are expectations are in terms of the 
upcoming election, and we also expect that there will be 
substantial external observers, including those from the United 
States.
    There is a discussion between not just the Republican 
National Institute and the Democratic National Institute, but 
other groups as well associated with the United Nations. So I 
think we have enough warning, enough knowledge, and also, the 
Philippines is so important to us it is critical that this 
election go through in a smooth way, in a way that Filipinos 
and Americans can be proud and work together going forward.
    Mr. Royce. And the CPC list, as it affects Vietnam, 
countries of particular concern, given the----
    Mr. Campbell. I am aware of your letter, Congressman, and 
what I would like to ask is the opportunity to get back to you 
in due course. This is an issue that will be taken up in the 
next several weeks in the United States Government. I must say, 
we face a very real challenge in the Asian Pacific region on 
some of these issues. One of the great concerns is that we have 
I would say a bit of a dichotomy with Vietnam, very real 
concerns about backsliding on issues of human rights and 
religious issues in recent years, but at the same time, this is 
a government that sees that it wants a closer relationship with 
the United States for strategic reasons.
    One of the things that we have tried to argue with them, it 
is going to be very hard to have that kind of relationship 
unless they take specific steps to improve their situation at 
home. So I understand that, and I guess what I would like is a 
little bit more time to be able to process. I am going to be in 
the region next week. I will have some specifics, and I would 
promise, if you will allow me, to get back directly in touch 
with you.
    Mr. Royce. I will, certainly, Assistant Secretary Campbell. 
I would just ask you to remember, unless we exert leverage, 
given what has happened there in terms of human rights abuses 
and the way they basically took advantage of a situation to 
then clamp down and beat senseless a lot of pro-democracy--and 
not even just pro-democracy activists, we are talking about 
everything from young people using the internet to Buddhist 
monks who simply want to practice their faith. I have been to 
Vietnam and talked to some of these political prisoners about 
what they faced and what has happened to their countrymen, 
including the loss of life on the part of some of the Buddhists 
in Vietnam as a result of these beatings. So let us exert a 
little leverage in this, and we can do it with a CPC list re-
designation. Thank you very much, Assistant Secretary Campbell. 
Thank you, Mr. Chairman.
    Mr. Faleomavaega. Thank you. The gentlelady from 
California.
    Ms. Watson. I want to move to the environment, and I am so 
pleased and proud to see that the Secretary also went down to 
Chile. You know, we witnessed this weekend probably an 
earthquake in Chile of biblical proportions. I mean, I think in 
many ways it was worse than the one in Haiti. That earthquake 
led to hundreds of deaths, like it did in Haiti, and also 
threatened Pacific islands and nations in direct danger of a 
massive tsunami. Hawaii and Japan both waited with baited 
breath as swollen waves passed by their respective shores.
    Clearly, tsunamis pose potential collateral damage to many 
islands and ports, even when the epicenter of disaster is far 
off. It looks like we are really having trouble in our Pacific 
areas. So what plans are underway to improve forecasting, 
detection, preparation and evacuation? I did see the Secretary 
saying that she bought equipment for communications and so on. 
So if you could just expand on that for us? There have been 
reports of repression on ethnic minorities in Burma--well, let 
us have you deal with Chile, and then we will go on to Burma.
    Mr. Campbell. Thank you very much, Congresswoman Watson. I 
think that when it comes to certain kinds of natural disasters, 
typhoons, earthquakes and the like, the United States has a 
multifaceted strategy for how to try to deal with these 
challenges. The truth is we have learned a lot since 2004 since 
the tragic tsunami hit Indonesia and other countries in 
Southeast Asia. First, there is now a much more comprehensive 
set of sensors on the floor of the Pacific and using other 
instruments that allow us to better predict how and when a 
seismic event might lead to tragic tsunami-like waves.
    Ms. Watson. Let me just ask you to put a pen in that. We 
went to Aceh afterwards and there was a gentleman there who had 
predicted this level of tsunami and so on, and I think that he 
was criticized and really fired from his job. So after it hit, 
and there was so much destruction. In fact, we flew over by 
helicopter and we just saw ripples in the water where islands 
have been. They couldn't even tell the number of people because 
the last time they took the census there had been more babies 
born. Just swept off of the globe. And so they found him to be 
right. So he was the one that was on the air. We heard his 
predictions and all. I see that our Secretary, as I mentioned, 
took communication equipment over. So I am just wondering if 
the people are more in tuned with the forecast. Go ahead.
    Mr. Campbell. I think the problem in parts of Indonesia, 
and Malaysia and elsewhere is that there was insufficient 
warning, and, in fact, knowledge. This complex sensor system 
that has now been activated in the Pacific gives us a much 
greater clarity and more warning time. So, if you will recall, 
after the Chilean earthquake we had several hours in which to 
prepare in Hawaii and other American protectorates, and we got 
the word out to Japan and other countries. So I would say in 
many respects that the recent event indicates that our 
preparedness has improved substantially. If I can mention just 
one last thing, Congresswoman, but the truth is what we have to 
be prepared is to respond. We have had our horrible rains in 
the Philippines this year, terrible cyclones, other situations 
in Guam, in American Samoa and elsewhere.
    Ms. Watson. In California, my State.
    Mr. Campbell. That is right, but in the Pacific, by far and 
away, despite all the discussion about rising powers, it has 
been the United States by more than any other country that has 
been able to provide humanitarian assistance, to get our forces 
there on the scene rapidly and to provide necessary steps 
toward recovery. We are very proud of that. I think that record 
over the last 6 to 8 months in this respect is quite 
substantial. We intend to keep those efforts up as we move 
forward.
    Ms. Watson. I know that on one of the Hawaiian Islands they 
did have a system, and at the time of the tsunami hitting 
within that region of Aceh the system had not been completed 
around to that side of the delta, so you are informing us now 
that they have completed it.
    Mr. Campbell. I don't know about every aspect of it, but 
almost all the critical components, these are sensors on the 
bottom of the Pacific that are able to detect shifts in 
pressure, that they are now in place. So they were able to 
track very clearly what was the tidal aftermath of the seismic 
event on the shore of Chile. Yes.
    Ms. Watson. I hear that in the Hawaiian Islands they hardly 
had a wave.
    Mr. Campbell. Yeah. Well, you know, the truth is that there 
were a lot of questions about whether in Hawaii the emergency 
authorities overreacted and that put people on higher ground 
and in various, you know, safe areas. You know, I think that 
kind of question is just wrong. Clearly, it is much better, you 
know, to take steps that potentially prepares for the worst. If 
it doesn't occur, it is a few hours of inconvenience. So I was 
very proud of the steps that both the government of Hawaii and 
other parts of the Pacific as well and our commanders, our 
Pacific commanders took important steps to ensure that we were 
well-prepared.
    Ms. Watson. Well, the tragedy there on Aceh was the fact 
that the waves come in and then they recede. Children and 
fishermen ran to pick up the fish that were there, and then 
here comes the water 500 miles an hour. I think many people saw 
the pictures of boats up against the hillside.
    Mr. Campbell. Horrific. Yeah.
    Ms. Watson. Thirty to 40 feet high. Hotels, you know, just 
flooded that had five and six floors. So it is better to be 
over prepared and get to higher land than to allow----
    Mr. Campbell. Yeah. I agree. Thank you, Congresswoman.
    Ms. Watson [continuing]. Nature to take over. Okay. Thank 
you.
    Mr. Faleomavaega. We are also joined by another 
distinguished member of the committee, my good friend, the 
gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Mr. 
Secretary, just a couple questions on a couple little areas 
here. I notice in your overview that you have stated that 
restrictions on the Export-Import Bank, I guess it is, U.S. 
Export-Import Bank financing of U.S. companies, the prohibition 
on them from doing business in Laos and Cambodia have been 
lifted. I know Cambodia. Cambodia does have now opposition 
parties. There has been some freedom of speech, even though it 
is still in the grip of a tough guy who is less than 
democratic. But Laos? Are there any opposition parties 
permitted in Laos?
    Mr. Campbell. Let me say that, as you know well, 
Congressman, we have very real challenges of governance in many 
parts of Southeast Asia. We believe that it is in American 
interest given the nature of some of the strategic challenges, 
economic challenges that we face in the Asian Pacific region 
that we need to step our engagement in Southeast Asia, and to 
do it carefully and not to in any way send a message that the 
United States does not care about the----
    Mr. Rohrabacher. Well, maybe you can tell us the progress 
that you have seen in Laos. You say you have taken the step now 
to eliminate the prohibition from the U.S. Export-Import Bank 
in financing business investments in Laos. What are the steps 
that you can point to? Do they have freedom of religion there? 
Do they have freedom of the press? Can you tell us now that 
they have ceased their persecution of the Hmong people? Are any 
of those things you can point to?
    Mr. Campbell. I would try to answer that question this way, 
Congressman. I do believe that one of the missions of American 
engagement on the business side, that when the United States is 
involved responsibly in terms of our business activities in 
Southeast Asia, that our values go with it. So I do believe 
that there is a desire in Laos, a careful one, to have a better 
relationship with the United States. I also agree with you 
completely that they are at the very earliest stages of any 
kind of progress in some of the issues that you and I care 
about.
    The truth is it has only been a couple of years, only a few 
years ago that Laos had almost no interest in the outside 
world. To the extent that they had outside external engagement, 
it was primarily with China. So they have said, look, they want 
to develop a careful relationship with the United States. The 
truth is, Congressman, this is not like we are opening the 
flood gates----
    Mr. Rohrabacher. Yeah, but you haven't made----
    Mr. Campbell. I am sorry. Let me just get it.
    Mr. Rohrabacher. Sure.
    Mr. Campbell. This is just meant to be a very careful 
initial step to see if we can begin some progress. I share many 
of your concerns about the domestic situation inside the 
country, but at the same time, I feel very strongly that the 
United States needs to step up its game in Southeast Asia.
    Mr. Rohrabacher. Mr. Secretary, my suggestion to you is 
that if indeed we move forward and take a step, like ending 
this prohibition on Export-Import Bank financing, and we don't 
expect something specific to see, you know, freedom of the 
press, freedom of religion, opposition parties, well then, we 
have sent exactly the wrong message to dictatorships. If the 
only thing they have to do is treat the American ambassador 
better and have little teas and things for us, that is not the 
right message. It is how they treat their people, not how they 
curtsy up and kiss American diplomats on the cheek. Let us go 
to China. We have had a one-way free trade relationship with 
China for a number of years.
    Most of us would think that that has been unacceptable and 
it has resulted in $1 trillion of wealth being transferred from 
our country to their country. Your administration is not 
responsible for this. You are responsible for what happens now. 
The Clinton and Bush administrations before you are responsible 
for maintaining that policy, especially the Clinton 
administration, which made most favored nation status with 
China a permanent situation. We also now see that they have 
stolen, they continue to steal our technology, there have been 
massive transfers of technology, making them more competitive, 
even with our businesses that have stayed here, and we now see 
a major build up of their military. Still, they have no free 
press, no opposition parties, people are still being arrested 
for their religious convictions, et cetera, in China. What does 
the administration, what specific things, are we demanding of 
the Chinese for us not to start trying to call into question 
this one-way free trade that we permitted?
    Mr. Campbell. Thank you, Congressman. Well, first of all, 
let me just say that I think the President, our Secretary and 
others have been very clear that for the United States to have 
an effective relationship in the Asian Pacific region, 
particularly with China, there needs to be rebalancing, and 
that we cannot return to a situation where Asians provide 
relatively cheap credit to the United States and that we buy 
inexpensive goods from Asia, that we can't return to that 
status quo antebellum, and that the United States must save 
more in this process, and we must be able to export more to 
China going forward.
    Now, there are a whole host of discussions that are ongoing 
on issues associated with trade and currency which are really 
not part of my purview, but I will say there is a deep 
understanding that the current situation is in imbalance and 
that there will need to be, as the President indicated, some 
rebalancing going forward. We have stated clearly that we 
believe that, you know, the relationship with China is 
important. We are trying to work with China on a range of 
issues, including on climate change, on Iran, on North Korea 
and the like, but at the same time, we are trying to send a 
very clear message that we will stand by our issues that are in 
American strategic interest and our core values.
    So you will have noted a few weeks ago that we made one of 
the largest sales, as demanded by the Taiwan Relations Act, to 
Taiwan, we have also had an important meeting, a spiritual 
meeting, with the Dalai Lama, and we will continue to take 
steps, as Secretary Clinton did, to speak out on issues, like 
internet freedom. I think we recognize that this is a 
relationship that is going to have elements where we probably 
are going to be able to work together, hopefully effectively, 
but there is going to be areas that we are going to continue to 
have substantial disagreement as we go forward.
    Mr. Rohrabacher. Is our country still accepting the 
designation of the Uighurs as being terrorists?
    Mr. Campbell. I think there was a specific organization 
during the Bush administration--I believe it was in 2002 or 
2003--that was deemed on a particular list, Congressman. I do 
not know the status of that now, and I will get back to you on 
that.
    [The information referred to follows:]

   Written Response Received from the Honorable Kurt M. Campbell to 
  Question Asked During the Hearing by the Honorable Dana Rohrabacher

    The United States designates certain organizations and individuals 
for inclusion on terrorism lists based on credible information, but the 
United States does not designate entire ethnic groups as terrorists. 
Uighurs are an ethnic minority group who principally live in western 
China and Central Asia.
    A small minority of Uighurs have been associated with the East 
Turkestan Islamic Movement (ETIM, a.k.a. Eastern Turkistan Islamic 
Party, ETIP), which the United States, after careful review of 
information, designated for placement on the Terrorist Exclusion List 
(TEL) in 2002. A TEL designation bolsters homeland security efforts by 
facilitating the U.S. Government's ability to exclude aliens associated 
with entities on the TEL from entering the United States. In addition 
to the TEL designation, in 2002, the United States designated ETIM 
under Executive Order 13224. The consequences of that E.O. designation 
are that all ETIM-related property and transactions under U.S. 
jurisdiction are frozen and all U.S. persons engaging with or for the 
benefit of ETIM are subject to civil and/or criminal liability. Also in 
2002, ETIM was added to the UN Security Council Al-Qa'ida and Taliban 
Sanctions Committee's Consolidated List of individuals and entities 
associated with al-Qa'ida or the Taliban. In April 2009, the Sanctions 
Committee added ETIP leader Abdul Haq to the Consolidated List, and in 
August, the United States designated Haq under E.O. 13224 for support 
to al Qa'ida.

    Mr. Rohrabacher. One last question, Mr. Chairman, and that 
is the Falun Gong are clearly the object of repression in 
China. We have documented many stories of people being picked 
up, and whatever it is, that the communist Chinese Government 
there, or just say the Chinese dictatorship, however you want 
to label it, has focused in on the Falun Gong. Christians don't 
have freedom of religion, Muslims don't, the Tibetans don't, 
the Uighurs don't, but the Falun Gong, they definitely don't 
have rights there and they are being picked up. What have we 
done? For example, have we investigated the charge that the 
Falun Gong has made that some of their people have been 
arrested and that there have been human body parts sold from 
the prisons in which their people were incarcerated?
    Mr. Campbell. Congressman, I actually don't know about that 
issue. I would put that also to the list, and I promise I will 
get back to you directly. I know we have raised issues of human 
rights with Chinese authorities, and on this particular issue I 
am just not aware of the information. I will get back to you.
    [The information referred to follows:]

   Written Response Received from the Honorable Kurt M. Campbell to 
  Question Asked During the Hearing by the Honorable Dana Rohrabacher

    In the 2009 China Country Report on Human Rights Practices we 
reported that the Chinese police continue to detain current and former 
Falun Gong practitioners. Falun Gong members identified by the 
government as ``core leaders'' have been singled out for particularly 
harsh treatment, and there are reported cases of killings, 
disappearances, and arbitrary arrests of Falun Gong practitioners and 
their lawyers. Further, Falun Gong members continue to face tight 
restrictions on their freedom to assemble, practice religion, and 
travel.
    With regard to organ harvesting, as the China Country Report also 
details, in 2007 a Chinese official acknowledged that the Chinese 
government harvested organs from executed prisoners. Since then, new 
regulations came into effect in China that include a ban on the trade 
of human organs and on live organ transplants from persons under the 
age of 18. The regulations also stipulate that the donation of human 
organs for transplant should be free and voluntary. The new 
regulations, however, make no specific reference to the extraction of 
organs from death penalty prisoners and we have no data about how 
effectively they are enforced. Although we are aware of Falun Gong 
allegations regarding organ harvesting atrocities, we are presently not 
aware of credible evidence that Falun Gong prisoners are targeted for 
organ harvesting.
    Promoting greater respect for human rights, including religious 
freedom, is among our key foreign policy objectives in China. We 
continue to urge the Chinese government to be more accountable to its 
citizens and treat its people in accordance with its constitution and 
international obligations, as well as universal human rights standards.

    Mr. Rohrabacher. You have been here first year, you know, 
we have got the first year under your belt.
    Mr. Campbell. 7 months for me.
    Mr. Rohrabacher. 7 months for you. We are looking forward 
to working with you.
    Mr. Campbell. Thank you.
    Mr. Rohrabacher. I would hope that this administration 
takes advantage of the opportunities we have to come to grips 
with some of the challenges in these relationships that I have 
outlined in my questions. So thank you very much.
    Mr. Campbell. Thank you very much, Congressman.
    Mr. Faleomavaega. Thank the gentleman from California. I do 
have a couple of questions, Mr. Secretary. Please be patient. I 
believe it was last year that our Government conducted the 
Pacific Partnership Program, which I think consisted of a mercy 
hospital vessel that went all over the Pacific with scores of 
doctors and trainers visiting about six or seven different 
island countries and giving vaccinations and medical treatment.
    I would like to suggest that the administration continue 
the program. My concern--which I have mentioned to some of our 
friends in the administration--is whether we will have to wait 
another 40 years for something like this to happen. It is a 
positive program, it has never been done before, and I would 
strongly, strongly urge the administration to continue the 
program. I think it goes a long way to help the island nations.
    Following what Congressman Royce stated earlier about the 
free trade agreement with South Korea, we have all known that 
one of the problems mentioned as an issue was auto parts. That 
was mainly raised by our friends from the Michigan delegation. 
The thing that I see as a positive feature of the free trade 
agreement with South Korea is that you are talking about 
potential exports from our country of between $11 billion and 
$20 billion, which means more jobs, exports going to this 
country. We don't have to worry about labor issues and we don't 
have to worry about health hazards. I was just wondering, what 
is the administration's position? Are we serious about 
continuing the dialogue or negotiation with the South Korean 
Government to pass the free trade agreement between South Korea 
and the United States?
    Mr. Campbell. Thank you very much, Congressman. I think you 
know that the Pacific Partnership Program was extraordinarily 
successful. It is one of several initiatives that we have tried 
in the Pacific in recent years that, frankly, have exceeded 
really our most optimistic expectations in terms of success. 
Let me give you another one. We have an ocean rider program 
whereby, you know, many of the Pacific Island nations have vast 
territorial seas in which there are sometimes illegal fishing 
and other acts that are done in these areas that are 
antithetical to their interests but they can't patrol, they 
can't protect their natural resources.
    When a national from their military or coast guard or other 
rides on an American ship, we are then able, with their 
authority, to actually stop and to sometimes take action 
against those that are violating fishing rights and the like. 
With the fines and others that have come from this program it 
has been terrifically successful for a number of states in the 
South Pacific, and your staff has been instrumental in helping 
this program. We look to continue it going forward.
    Mr. Faleomavaega. I might also mention, Mr. Secretary, that 
there is the latest development now among certain Pacific 
Island nations, about five or six including the Solomons, FSM, 
the Marshalls, Papua New Guinea, wanting to establish some kind 
of a cartel similar to OPEC, but controlling the sale and the 
catch of tuna. You are talking about a $4-billion industry that 
doesn't go to the benefit of these island nations. There is now 
organized what is called a Nauru Agreement. A summit was held 
about 2 weeks ago in Palau by these island nations to establish 
an OPEC-like organization so they can get more of the benefits.
    The problem here is that most of the fishing is done by 
foreign countries or foreign companies. The island nations get 
a pittance as a result. Of course, my own little territory is 
impacted by the fact that we at one time processed tuna there 
for the largest processor in the world. No longer. Thailand is 
now doing this. Definitely I want to work with your office 
concerning the Oceans Program, see how we can help the island 
nations to develop this.
    Mr. Campbell. I agree with that, Chairman. I would just say 
that I think our goals in this respect our twofold. Not only do 
we want to see more of the profits go to the Islanders, but at 
the same time, I think we have to recognize this is one of the 
last stocks of healthy tuna in the world and that we have a 
really critical responsibility to make sure that this fishing 
resource is treated in a way that allows for the best ability 
to sustain this critical natural resource going forward. If I 
can, just on the, I do believe, as I indicated, the meetings 
between President Myung-bak and President Obama left me quite 
optimistic. I think the President stated very clearly of his 
desire to have necessary discussions going forward.
    They didn't put a particular timetable at that juncture, 
but I believe that the United States Government and the Korean 
Government will take the appropriate steps in the near future. 
I am still quite confident that we will get this agreement 
done. I know how important it is to Korea, but I also think 
increasingly it is very important to the United States. I 
accept very clearly some of the statements that you and others 
have made about the potential benefits that will come to the 
United States.
    Mr. Faleomavaega. On the Korean issue, and especially on 
the situation with North Korea, I make an observation. I know 
that our policy is to try to tell North Korea to cut its 
nuclear program. But how do you denuclearize a country that 
already has nuclear bombs? Are we consistent in terms of our 
policy in putting pressure on North Korea? Did we do it against 
Pakistan? Did we do it against India? I don't think so. What I 
wanted to find out from you is if we think that North Korea is 
so unstable that we have to denuclearize the country when they 
already have about eight or nine nuclear bombs?
    Mr. Campbell. The truth is, Mr. Chairman, there are 
examples in global politics of countries that have willingly 
given up nuclear weapons because they believe that they find 
themselves in a better circumstance strategically after that. I 
would put in that category, although Libya never made it to the 
final step, but Libya abandoned its nuclear programs, South 
Africa did, the Ukraine did, other countries, as former parts 
of the Soviet Union that had major sort of components 
associated with the Soviet nuclear arsenal, and so I first of 
all think that it is entirely appropriate for the international 
community and the United States to call for denuclearization in 
North Korea, not simply because we have concerns about North 
Korea, and those are very real.
    We have seen them proliferate a vast amount of equipment 
and capabilities that are antithetical to global maintenance of 
peace and stability. We have concerns about many of the actions 
that they have taken, and we have concerns about the very 
nature of their government. Also, I think an acknowledged 
nuclear state in Northeast Asia would pose very significant 
challenges to the maintenance of the kind of relationships we 
want with both Japan and South Korea. So, no, I am completely 
comfortable and I think that the approach that we have taken is 
the appropriate one. We have made very clear that if North 
Korea wants to join the family of nations, if they want to work 
with us on economic growth, on greater integration in the 
booming economies of Northeast Asia, then they must take 
several steps. One of them is denuclearization. We also want to 
see progress on specific economic, and also human rights 
issues. We think that is the appropriate approach. I must tell 
you, Congressman, on this issue we have rock solid support from 
the South Koreans, Japanese and others as we go forward.
    Mr. Faleomavaega. I am a little puzzled to the extent that 
probably I am one of the few members who has ever been to the 
Marshall Islands where we bombed that island archipelago to 
bits and pieces. We detonated 67 nuclear bombs on the Marshall 
Islands including the first hydrogen bomb. To this day, we 
still have not provided justice to these people. I really would 
like to work with you in making sure that we give better 
treatment to the people in the Marshall Islands. We still have 
not done them justice. I also visited the island of Mururoa 
where the French Government detonated almost 200 nuclear 
weapons in the atmosphere, on the surface and below it. Just 
really, really one of those episodes.
    I think it was 2 years ago when I was invited by the 
President of Kazakhstan to visit Semipalatinsk where the Soviet 
Union exploded its first atom bomb in 1949. And guess what? 
That place is still radioactive since the Soviets detonated 450 
nuclear devices there, including the most powerful hydrogen 
bomb ever exploded. That was not in Kazakhstan, but some 1.5 
million Kazaks ended up exposed to the horrors of nuclear 
radiation, similar to what happened to the Japanese when we 
dropped the bombs in Nagasaki and Hiroshima. So I have this 
sense of contradiction that I wanted to share with you. On the 
one hand we are telling these countries not to develop nuclear 
weapons, but the five permanent members of the Security Council 
continue to have their own nuclear weapons.
    My question: Is it right for these five permanent members 
of the Security Council to tell the rest of the world not to 
have nuclear bombs, but it is okay for the five to have them? 
That is where I am a little puzzled myself. I can understand 
deterrence; I can understand making sure that we are always 
prepared and dealing from a position of strength. But with 
Iran, why are they motivated to develop an atomic bomb? Because 
Israel has one, even though Israel will never admit or deny it. 
Then the Arabs want to have a bomb, too. So it goes on and on. 
Where will it stop, or when will it stop? Of course, then al-
Qaeda and the terrorists will stop at nothing and will try to 
get a bomb that can be taken in a suitcase or a dirty bomb that 
is just as bad, if not worse. So I just want you to walk me 
through how it is possible for some countries to continue to 
have nuclear weapons but the rest of the world cannot.
    Mr. Campbell. Let me try, if I can, Congressman, just to 
make three points. We have gone a little further afield in 
terms of our specific patch here, but let me try to----
    Mr. Faleomavaega. Well, North Korea.
    Mr. Campbell. No, no. Let me try to specifically suggest. I 
think one of the things that President Obama has underscored, 
and he has been very much influenced by some elder statesmen, 
many of whom served during the Cold War and others, and he 
believes, as do many others, that it is absolutely critical on 
the part of the United States, and indeed other leading 
nations, to reduce the significance of nuclear weapons in our 
global strategy. I think you will see at the upcoming nuclear 
summit and through a variety of other programs and policies of 
the United States that we are attempting to do that. We are 
trying to diminish the role of nuclear weapons in our global 
strategy.
    At the same time, we recognize that these weapons have been 
invented, they exist. The most important deal, if you will, the 
arrangement that is underscored in the Nonproliferation Treaty, 
is that at the same time that the established nuclear weapons 
must reduce their arsenals in order to ensure that other states 
do not try to build them. We have seen one part of the 
arrangement essentially fulfilled, but, as you underscore, the 
arsenals over the Cold War of the United States and the Soviet 
Union went up. You are going to see some specific steps, 
hopefully, after an agreement with Moscow that the United 
States and Russia will reduce its nuclear arsenals, so I 
actually think that that is a very important step as part of 
fulfilling this essential bargain. We think strengthening of 
the Nonproliferation Treaty is an essential component to global 
security.
    Mr. Faleomavaega. Especially with 90 percent of the nuclear 
weapons now in existence in the possession of the Russians and 
us.
    Mr. Campbell. I accept that. I think we have to reduce 
those. We also recognize the very real worries about a nuclear 
weapon that would end up in the hands of a terrorist. Now, on 
the specific issues of the legacy issues in the Pacific, I must 
say I agree with you. I think the United States has some unique 
responsibilities associated with dealing with some of the 
horrific challenges, but also, the enduring commitments to the 
Pacific region. When we have met before I underscored to you I 
think when people say Asia Pacific they focus more on the 
former than on the latter, and I think, you know, see how we 
do, but I will say, you know, I have been in here 7 months, we 
have got a new, you know, AID office in the Asia Pacific, we 
are going to try to work on the compacts, we are going to try 
to make sure we have high-level visits, we need to work with 
these countries and these places on climate change and on 
continuing issues of health and HIV. Those are continuing 
challenges of the United States, and we cannot shirk these 
responsibilities. I would add to them the challenges of the 
Marshall, and Bikini and the like. So I hope that I will be a 
good partner for you in this endeavor, Congressman, and I share 
your sense of concern about these historical matters.
    Mr. Faleomavaega. Mr. Secretary, I know you have been very 
patient, and I deeply appreciate your patience and all the 
questions that have been raised. I deeply appreciate your 
presence, and I wish you all the best on your upcoming trip. 
Please, let us do this again. Thank you very much.
    Mr. Campbell. I will come back and let you know how things 
go. Thank you very much, Congressman.
    Mr. Faleomavaega. Hearing is adjourned.
    [Whereupon, at 4:06 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
